J&ortl) Carolina
Court of Appeals
DANIEL M. HORNE JR., Clerk

Fax: (919) 831-3615
Web: https://www.nccourts.gov

Court of Appeals Building
One West Morgan Street
Raleigh, NC 27601
(919) 831-3600

Mailing Address:
P. O. Box 2779
Raleigh, NC 27602

No. P20-331

DERRICK M. ALLEN SR.
PLAINTIFF
V.
DURHAM CO. DISTRICT ATTORNEY OFFICE/STATE OF NORTH CAROLINA ET. AL.
DEFENDANT
From Durham
( 98CRS5208, 98CRS7979-80 )

ORDER
The following order was entered:
The petition filed in this cause by petitioner Derrick M. Allen Sr. on 16 June 2020 and designated
'Petition for Writ of Certiorari' is denied.
By order of the Court this the 23rd of July 2020.
The above order is therefore certified to the Clerk of the Superior Court, Durham County.
WITNESS my hand and the seal of the North Carolina Court ofAppeals, this the 23rd day of July 2020.

Daniel M. Horne Jr.
Clerk, North Carolina Court of Appeals

Copy to:
Derrick M. Allen, For Allen, Derrick M. Sr.
Attorney General
Hon. Orlando F. Hudson, Jr., Senior Res. Superior Court Judge
Hon. Archie L. Smith, III, Clerk of Superior Court

iSortlj Carolina
Court of Appeals
DANIEL M. HORNE JR., Clerk

Fax: (919) 831-3615
Web: https://www.nccourts.gov

Court of Appeals Building
One West Morgan Street
Raleigh, NC 27601
(919) 831-3600

Mailing Address:
P. O. Box 2779
Raleigh, NC 27602

No. P20-331
DERRICK M. ALLEN SR.
PLAINTIFF
V.
DURHAM CO. DISTRICT ATTORNEY OFFICE/STATE OF NORTH CAROLINA ET. AL.
DEFENDANT
From Durham
( 98CRS5208, 98CRS7979-80 )

ORDER
The following order was entered:
The petition filed in this cause by petitioner Derrick M. Allen Sr. on 29 July 2020 and designated
'Petition for Rehearing' is denied.
By order of the Court this the 31st of July 2020.
The above order is therefore certified to the Clerk of the Superior Court, Durham County.
WITNESS my hand and the seal of the North Carolina Court ofAppeals, this the 31st day of July 2020.

Daniel M. Horne Jr.
Clerk, North Carolina Court of Appeals

Copy to:
Derrick M. Allen, For Allen, Derrick M. Sr.
Attorney General
Hon. Orlando F. Hudson, Jr., Senior Res. Superior Court Judge
Hon. Archie L. Smith, III, Clerk of Superior Court

FOURTEENTH DISTRICT

No. 425P12-2
. -v
^4.

'"Vttmz Cfcurt of J^ortl) Carolina
DERRICK M. ALLEN, SR.

v
DURHAM CO. DISTRICT ATTORNEY OFFICE, STATE OF NORTH CAROLINA, ETAL.
From N.C. Court of Appeals
( 11-744 P20-331 )
From Durham
( 98CRS5208 98CRS7979-80 )

ORDER

The following order has been entered on the motion filed on the 3rd of August 2020 by Petitioner for Notice
of Appeal:
"Motion Dismissed ex mero motu by order of the Court in conference, this the 15th of December 2020."
Ervin, J., Recused
si Davis, J.
For the Court
Upon consideration of the petition filed by Petitioner on the 3rd of August 2020 in this matter for a writ of
certiorari to review the order of the North Carolina Court of Appeals, the following order was entered and is hereby
certified to the North Carolina Court of Appeals:
"Dismissed by order of the Court in conference, this the 15th of December 2020."
Ervin, J., Recused
s/ Davis, J.
For the Court
Upon consideration of the petition filed by Petitioner on the 3rd of August 2020 in this matter for a writ of
certiorari to review the order of the Superior Court, Durham County, the following order was entered and is hereby
certified to the Superior Court of that County:
"Dismissed by order of the Court in conference, this the 15th of December 2020."
Ervin, J., Recused
s/ Davis, J.
For the Court
The following order has been entered on the motion filed on the 3rd of August 2020 by Petitioner to Proceed
In Forma Pauperis:

"Motion Allowed by order of the Court in conference, this the 15th of December 2020."
Ervin, J., Recused
si Davis, J.
For the Court
The following order has been entered on the motion filed on the 3rd ofAugust 2020 by Petitioner for Appointment
of Counsel on Appeal:
"Motion Dismissed as moot by order of the Court in conference, this the 15th of December 2020."
Ervin, J., Recused
si Davis, J.
For the Court

WITNESS my hand and the seal of the Supreme Court of North Carolina, this the 22nd day of December
2020.

Amy L. Funderburk
Clerk, Supreme Court of North Carolina

~2&/>

M. C. HackneyL-"'
Assistant Cleffr, Supreme Court Of North Carolina

Copy to:
North Carolina Court of Appeals
Mr. Daniel P. O'Brien, Special Deputy Attorney General, For State of North Carolina - (By Email)
Mr. Derrick M. Allen, Sr., For Allen, Derrick M. Sr. - (By Email)
Mr. Roger A. Echols, District Attorney
Hon. Archie L. Smith, III, Clerk
West Publishing - (By Email)
Lexis-Nexis - (By Email)

